No. 19-1326

IN THE
SUPREME COURT OF THE UNITED STATES

E. Thomas Scarborough III, Petitioner
v.
C.C.P. Northampton, et al, Respondents

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Third Circuit

SUPPLEMENTAL BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

E. Thomas Scarborough III, pro se
3876 Applebutter Road
Perkasie, Pennsylvania 18944
etscaaol.com
(267) 221-7236

RECEIVED
JUN 2 9 2020
ofFice OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

INTRODUCTION

1

ARGUMENT

3

THE BOSTOCK v. CLAYTON COUNTY
DECISION SUPPORTS THIS PETITION
FOR CERTIORARI

3

THE THIRD CIRCUIT'S ORDER BECAME
AVAILABLE AFTER THE PETITION FOR
6
WRIT OF CERTIORARI WAS FILED
RESPONDENT CONTINUES TO NEGLECT
7
ASSERTIONS OF FACT
The Court must not refuse to afford
protection of the laws

7

The Pennsylvania Supreme Court •
wrongfully refuses to remedy the
unconstitutional custody Order

9

CONCLUSION

12

APPENDIX
Court of Appeals Order dated February 20, 2020;
13
filed May 22, 2020

'3Nhj,
°Ds; e vt.p

TABLE OF AUTHORITIES
Page
Ca se Law
Adickes v. S.H. Kress Co.,
398 U.S. 144, 153,
7
90 S. Ct. 1598, 26 L.Ed.2d 142 (1970)
Bostock v. Clayton County,
1, 2, 3, 4, 5, 10
17-1618
Brentwood Academy v. Tennessee Sec. Sch. Ath. Ass,
4
531 U.S. 288
Burlington N. & S.F.R.,
1
548 U.S. at 59
Cleveland Board of Education v. Loudermill,
9
470 U.S. 532 (1985)
Cooper v. Aaron,
11
358 U.S. 1, 78 S. Ct. 1401 (1958)
Fitzgerald v. Barnstable School Committee,
5
555 U.S. 246 (2009)
Goldberg v. Kelly,
..9
397 U.S. 254 (1970)
Graham v. Connor,
5
490 U.S. 386 (1989)
Maine v. Thiboutot,
4
448 U.S. 1
Marbury v. Madison,
8, 10
5 U.S. 137, 180 (1803)
Palmore v. Sidoti,
5
466 U.S. 429
Pennsylvania Dept. of Corrections v. Yeskey,
3, 4
524 U.S. 206, 208 (1998)
Phillips v. Martin Marietta Corp.,
3
400 U.S. 542
Scheuer v. Rhodes,
4
416 U.S. 232, 248-249
Wright v. Roanoke Redevelopment Authority,
4
479 U.S. 418 (1987)

ii

TABLE OF AUTHORITIES- continued
Statutes
Eleventh Amendment
Fourteenth Amendment
U.S. Constitution, Article III, §2
U.S. Constitution, Article VI, Clause 2
29 U.S.C. §794 (§504 Rehabilitation Act)
42 U.S.C. §12202
28 U.S.C. §2106
42 U.S.C. §1983
Civil Rights Act
Supreme Court Rule 15.8

iii

Page
1, 4, 10
2, 3, 4, 5
11
11
1, 4, 8
4, 8
11
3, 4, 5
.1
1

INTRODUCTION
E. Thomas Scarborough III (Petitioner/Father)
files this Supplemental Brief, under Supreme Court
Rule 15(8) in light of the Court's recent decision in
Bostock v. Clayton County, (17-1618) issued on June
15, 2020. This Supplemental Brief also calls the
Court's attention to: (i) The Third Circuit's Order
filed May 22, 2020, which was not available when
Petitioner filed his Petition for Writ of Certiorari on
May 19, 2020, (ii) Respondent's ongoing failure to
afford protection of the laws, by again neglecting to
properly address assertions of fact. 1
The Bostock decision analyzed the factors to
consider in the proper application of the Civil Rights
Act of 1964, as it relates to sex based discrimination.
This Petition for Certiorari also claims sex based
discrimination and cites the Civil Rights Act as it
relates to §504 of the Rehabilitation Act of 1973.
The Bostock Court reversed the Eleventh
Circuit's findings, with regard to discrimination on
the basis of sex, while determining, "What did
"discriminate" mean in 1964?" Logically, it was
determined to mean what it means today.
"discriminate against" refers to "distinctions
or differences in treatment that injure
protected individuals." 2
While the Court's indifference to discrimination
on the basis of sex is analogous to Bostock, the issues
presented by this case are instead, of exceptional
This Court's Rule 15.8 provides in pertinent part that "any
party may file a supplemental brief at any time while a petition
for a writ of certiorari is pending, calling attention to new
cases, new legislation, or other intervening matter not
available at the time of the party's last filing."
Burlington N. & S.F.R., 548 U.S. at 59

1

importance to fathers and to individuals with
protected disabilities because Petitioner/Father has
been excluded from participation in, denied the
benefits of and has been subjected to discrimination
under the State Court system.
Petitioner/Father respectfully argues, that the
Bostock case supports the grant of certiorari to him,
if not the outright summary reversal of the Third
Circuit's contrary decisions below, which have
decided important questions of federal law that
implicate citizens' Fourteenth Amendment and other
protected federal rights.
The Third Circuit has aberrantly determined that
in every instance, the actions and inactions of the
Pennsylvania Supreme Court are never reviewable
because sovereign immunity unconditionally
empowers and authorizes a State Court to:
discriminate.
deny or take away the Equal protection of the
laws.
refuse to remedy an unconstitutional Order.
allow a County Court without jurisdiction to
enter custody orders.
interfere with liberty and property interests that
are entitled to procedural and substantive Due
Process protections.
ignore the rules of civil procedure, federal
statutes, Constitutional violations and criminal
allegations.
irreparably harm and injure its citizenry.
Had the pleas been read, the panel would have
discovered that their conclusions as to every issue,
conflict with this Court's binding precedents and
decisions of other Circuits'. Therefore, these
questions are ripe for review by this Court.

2

ARGUMENT
I. THE BOSTOCK v. CLAYTON COUNTY
DECISION SUPPORTS THIS PETITION FOR
CERTIORARI.
In Bostock, the Court was challenged with
defining who is protected, where in this case the
Court is asked to determine whether a State
Supreme Court may be permitted to make
distinctions or differences in treatment that injure
protected individuals.
The Bostock Court cited precedent confirmed in
Phillips v. Martin Marietta Corp., where wrongful
discriminatory policies based on "motherhood" were
held to be unlawful. 3
Respondent's discriminatory policies based on
"motherhood" are just as unlawful. As determined in
Bostock, how Congress viewed father's rights in 1964
may not be entirely relevant today.
The Court below intimately understood Bostock's
cause of action, however in the present case, the
Court has struggled with adequately articulating
any cause of action excepting the Due Process Clause
of the Fourteenth Amendment, which encompases
three kinds of federal claims enforceable under 42
U.S.C. §1983. Attorney Schroll adroitly asserts all
three, along with many other causes of action, to
include fraud at #28 and Respondent's failure to
accommodate Petitioner's protected disability at #57
and #64 cc. 4
This is significant because the Bostock Court
cited precedent confirmed in Pennsylvania Dept. of
Corrections v. Yeskey,
400 U.S.542
See 5a

3

"no "public entity" can discriminate against
any "qualified individual with a disability." 5
This cited precedent confirms that this Court has
supplemental jurisdiction over every federal law
claim because immunity is not extended to State
Court systems that violate 42 U.S.C. §12202 and
§504 of the Rehabilitation Act.
The decision reached in Bostock also markedly
confirms that it is Constitutionally impermissible for
Courts to discriminate. Conversely, the Courts below
errantly assert that the Eleventh Amendment bars
Petitioner/Father's valid §1983 due process claims
under the Fourteenth Amendment, "All claims
brought under section 1983 are subject to Eleventh
Amendment immunity." 6
"rights enforceable under §1983, are not 7
beyond the judiciary's competence to enforce."
The Bostock Court determined that everyone is
entitled to benefit from from the written word.
"Only the written word is the law, and all
persons are entitled to its benefit." 8
When a state action is alleged to violate a federal
statute, the pertinent issue is whether the particular
statutory provision creates rights enforceable under
§1983. 9
524 U.S. 206,208.
Scheuer v. Rhodes, 416 U.S.232 248-249.
Maine v. Thiboutot, 448 U.S.1.
Wright v. Roanoke Redevelopment Auth, 479 U.S.418.
Bostock v. Clayton County, 17-1618.
Brentwood Acdmy v. TennesseSec.Sch. Ath.Ass. 531 U.S.288

4

Whether the plaintiff has alleged a proper
constitutional claim under §1983 depends on the
meaning of the particular constitutional provision at
issue; not on an interpretation of §1983. For
example, in Graham v. Connor this Court employed
an objective reasonableness standard. 10
While Bostock v. Clayton County is a case of first
impression, Congress did not intend to displace
§1983 suits enforcing constitutional rights and
clearly did not preclude the assertion of §1983
gender discrimination claims under the Equal
Protection Clause of the Fourteen Amendment. 11
This Supreme Court reverses unconstitutional
custody awards, holding these particular State
actions to be governed by the Fourteenth
Amendment's Due Process Clause. 12
Petitioner/Father has Article III standing because
a favorable decision on the merits will redress his
"injuries in fact."
The Courts below in Bostock have permitted
discriminatory acts while finding federal protections
inapplicable, so too have the Courts below erred in
the instant matter. Who will investigate federal
crimes, if not this Court?
"To refuse enforcement... would tilt the scales
of justice in favor of the strong or popular and
neglect the promise that all persons are
entitled to the benefit of the laws terms." 13
The United States Constitution and other federal
protections have been held to be inapplicable in this
490 U.S.386.
Fitzgerald v. Barnstable School Committee, 555 U.S.246.
Palmore v. Sidoti, 466 U.S.429.
Bostock v. Clayton County, supra.

5

case, because sovereign immunity unconditionally
empowers and authorizes this State Supreme Court
to discriminate.
II. THE THIRD CIRCUIT'S ORDER BECAME
AVAILABLE AFTER THE PETITION FOR
WRIT OF CERTIORARI WAS FILED.
The Appellate Court's Order was not available
when Petitioner filed the Writ of Certiorari. The
Court below's decision with regard to sealing the
record is missing from this Order.
Petitioner renews the request to protect sensitive
information, by Ordering the record to be sealed.
While the record below already reflects this plea, the
Court remains silent on this issue.
This record should be sealed due to the sensitive
nature of the Parties protected health information.
The unabridged exhibits for 126 MM 2018 were
filed with Appellant's Motion in Support of
Requested Mandamus Relief for Discovery and
Summary Judgement dated September 27, 2019.
These unabridged exhibits include the Parties
MNIPI-2 raw data (exhibit 17).
For additional clarity, please refer to the
conclusions drawn, stated in these abridged exhibits
(5a) #36, #47, #48, #64(f) inter Alia.
Respondent's consent may be assumed by the
lack of response or objection in the Appellate Court.
Moreover, Respondent has Ordered the record to be
sealed in the State Court proceeding for these same
reasons. WHEREFORE; Petitioner respectfully
requests that the Court issue an Order to seal the
record.

6

III. RESPONDENT CONTINUES TO NEGLECT
ASSERTIONS OF FACT.
Pursuant to Rule 60 (d)(3), Respondent is again
culpable for the neglectful failure to answer. Rule 60
(d)(3) binds this Court to except jurisdiction over this
claim of fraud.
The State Court bears the burden of proving that
there is "no genuine issue of material fact," but again
fails to adequately address claims. 14
By failing to properly address assertions of fact,
Respondent has again failed to overcome this initial
burden, conceding that all claims are actionable and
has again conceded that all requests for relief are
unobjectionable.
Because the right of access to the Court is
Constitutionally guaranteed and because there is a
strong public interest for the Court to protect a
citizens' rights, this Court should grant certiorari to
hear allegations concerning violations of
fundamental Constitutional rights, notwithstanding
Respondent's bewildering objection.

A. The Court must not refuse to afford the
protection of the laws.
While disappointing, Respondent's failure to
respond is not surprising because for more than a
decade, Respondent has failed to afford protection of
the laws by repeatedly ignoring and dismissing
Petitioner's pro se pleas to investigate fraud.

14. Adickes v. Kress, 398 U.S.144.

7

"The very essence of civil liberty certainly
consists in the right of every individual to
claim the protection of the laws, whenever he
receives an injury. One of the first duties of
government is to afford that protection." 16
This failed duty is central to 42 U.S.C. §12202 and
§504 claims. Making known the intricacies of this
obfuscated proceeding, would be onerous even for
someone without protected communication deficits.
Communication with the Court has been futile
because every Court has failed to adequately
accommodate the requirement to read pleadings and
every Court has failed to take the time needed to
consider the background of this complex, complicit
matter. Reading pleas would considerably improve
understanding and credibility. 17
Case in point, no Court has ever been able to
adequately articulate Petitioner's first cause of
action... primary custody was fraudulently awarded
gender, lay a County Court without jurisdiction.
Respondent not only fails to meaningfully address
the recognized Due Process claims, but again fails to
articulate, have regard for, nor respond to any cause
of action. Instead, Respondent claims immunity from
any duty or legal obligation to protect federal rights.
These ongoing failures (i.) adequately
substantiate the need for accommodation, (ii.)
substantially demonstrate "deliberate indifference"
to federal guarantees, and (iii.) ubiquitously
withhold protection of the laws.
When taking ample time to read and consider the
civil conspiracy detailed in 126 MM 2018 (7a), the
facts raised should be shocking.
Marbury u. Madison, 5 U.S.137.
See 5a. #53.

8

Despite Petitioner's repetitive begging for the
investigation of crimes, no Court has ever
recognized, articulated nor meaningfully addressed
the fraud upon the court.
For more than a decade, the State Court has
apathetically permitted the deliberate ongoing
obstruction of discovery and the willful deprivation
of Petitioner's protected rights, by court officials
conspiring to injure. "The Due Process Clause
requires provision of a hearing at a meaningful
time." 18
By again neglecting claims and by again refusing
to consider or properly address any assertions of
fact, the State Court has again wrongfully denied
Petitioner access, to claim protection of the laws.
Contrary to Respondent's assertions, sovereign
immunity does not permit a State Supreme Court to
repudiate the United States Constitution, nor to
allow its citizenry to be violated. The right of access
to the Courts is inherent in the rule of law.
Granting certiorari will remedy this failed duty,
by permitting Petitioner/Father access to the Court.
B. The Pennsylvania Supreme Court
wrongfully refuses to remedy the
unconstitutional custody Order.
Since 135 MM 2009, Petitioner has repeatedly
begged the Supreme Court of Pennsylvania to vacate
the initial unauthorized Order "void ab initio" and
restore jurisdiction to Bucks County. The State
Court immutably ignores Petitioner.
Confirmation bias has precluded the investigation
of the federal crimes alleged. Rather than
18. Cleveland Bd. of Educ. v. Loudermill, 470 U.S.532;
Goldberg v. Kelly, 397 U.S.254.

9

investigate the fraud upon the Court, raised again
by Attorney Schroll at #28 (5a), and again raised by
Petitioner at #40 and #156 (7a), Respondent
superciliously neglects valid claims, preferring to
avoid crimes upon the Court.
Rather than challenge any claim, Respondent
maintains immunity to act autonomously from the
United States Constitution. Rather than remedy the
unconstitutional Order, the Pennsylvania Supreme
Court instead asserts sovereignty.
In Bostock, Circuit Judges Rosenbaum and Pryor
dissented because the Court has an obligation to:
"give a reasoned and principled explanation
for our position... the legitimacy of the law
demands that we explain ourselves." 19
Respondent again fails to respond because it has
been determined that the Eleventh Amendment
absolutely bars actions against a State Court's
failure to protect its citizens'.
Petitioner sorely prays that an authority, any
authority, read and earnestly act upon his desperate
cries for relief. This Court must now decide whether
to protect the Constitution or turn a blind eye to it.
Justice demanded judicial intervention to remedy
the unconstitutional custody Order, however the
Pennsylvania Supreme Court continues to refuse,
considering the task beyond its judicial capabilities
or interest.
"law repugnant to the Constitution is void" 20
The State Court's ability and obligation to remedy
an unconstitutional Order is not dependent upon
Bostock v. Clayton County, Supp. App. 7,8
Marbury v. Madison, supra.

10

preference nor inclination. The duty to preserve and
protect any Constitutional guarantee is not
aspirational. 21
This Supreme Court accepts jurisdiction over
abandoned substantive Due Process claims and over
claims where the State Court has demonstrated the
unwillingness to protect federal rights.
Nevertheless, the Supreme Court of Pennsylvania
agrees with the Third Circuit's anomalous finding
that Rooker-Feldman renders this Court powerless
to remedy injuries caused by a fraudulent,
unconstitutional State Court custody Order.
Petitioner/Father's rights continue to be
overridden by the exercise of State authority because
no Court has ever considered the Amended Petition
for shared custody and Bucks County prothonotary
receipts. See 8a, 126 MM 2018 exhibits 1 and 2.
These documents provide clear and convincing
evidence that Petitioner/Father did not consent to
the foreign venue, whereas the Parties are unable to
share custody in Northampton County (emphasis added).
This Supreme Court has the authority, under the
Supremacy Clause and Article III, §2 of the
Constitution, to review legislative or other
governmental acts and find them unconstitutional,
and therefore render these acts null and void.
This Court also has the inherent equitable power
to vacate a judgement obtained through fraud upon
the Court. The initial unauthorized custody Order
under attack is "void on its face" and should be
immediately struck off pursuant to 28 U.S.C. §2106.
"A right delayed is a right denied." .{MLK Jr]
21. Cooper v. Aaron, 358 U.S.1, 78 S.Ct. 1401.

11

CONCLUSION
This Court should grant the Petition for a Writ
of Certiorari to protect fundamental rights, by curing
the blatantly unconstitutional award of primary
custody by gender; and,
to swiftly eradicate the unconstitutional
practice and to ensure a fair process, by "striking off'
the initial unauthorized,, fraudulent Order (void ab
initio) and remand this "fast track" custody matter
to C.C.P. Bucks County Pennsylvania, and,
to remedy the maliciously abused process, by
accepting jurisdiction over the federal crimes
alleged, by Ordering the federal investigation of said
crimes,
to guard the Constitution, by reversing and
remanding the remaining federal questions to
District Court.
to protect sensitive information, by sealing
the record.
Respectfully submitted,
June 23, 2020
E. Thomas Scarborough III pro se

12

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
SUPP a1
No. 19-2455

E. THOMAS SCARBOROUGH, III, Appellant
v.
COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY, SUPREME COURT
OF PENNSYLVANIA
On Appeal from the United States District Court for
the Eastern District of Pennsylvania
(D.C. Civil Action No. 5-18-cv-02436)
District Judge Jeffrey L. Schmehl
Submitted Pursuant to Third Circuit LAR 34.1(a)
February 18, 2020
Before: SHWARTZ, RESTREPO and NYGAARD,
Circuit Judges
JUDGEMENT
This cause came to be considered on the record
from the United States District Court for the
Eastern District of Pennsylvania and was submitted
pursuant to LAR 34.1(a) on February 18, 2020. On
consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that
the judgement of the District Court entered June 14,
2019, be and the same is hereby affirmed. Each side
to bear its own costs. All of the above in accordance
with the opinion of this Court.

13

ATTEST:
s/Patricia S. Dodszuweit
Clerk
Dated: February 20, 2020
Certified as a true copy and issued in lieu
of a formal mandate on May 22, 2020

14

